                                               U.S. DEPARTMENT OF
                            HOUSING AND URBAN DEVELOPMENT
                                        OFFICE OF INSPECTOR GENERAL




                                                                                            MEMORANDUM NO.
                                                                                            2012-CF-1810


June 27, 2012


MEMORANDUM FOR: Dane M. Narode, Associate General Counsel, Office of Program
                   Enforcement, CACC




FROM: Kim Randall, Director, Civil Fraud Division, GA

SUBJECT: Final Civil Action: Flagstar Bank, FSB, Settled False Claims Act Allegations of
           Submitting False Certifications to HUD on FHA Loans


                                          INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), assisted the U.S. Attorney’s Office, Southern District of New York, in conducting a
review of Flagstar Bank, FSB. The objective of the review was to determine whether Flagstar
conducted its operations in the underwriting of Federal Housing Administration (FHA) loans in
accordance with HUD-FHA regulations.

                               SCOPE AND METHODOLOGY

To assist the U.S. Attorney’s Office, we performed the following:

       Obtained loan-level data from HUD’s Single Family Data Warehouse and Neighborhood
       Watch systems;
       Obtained FHA loan files from Flagstar;
       Obtained FHA loan files from HUD’s Homeownership Centers;
       Identified Flagstar underwriter information from HUD’s systems;
       Provided a 2005 OIG audit report on Flagstar’s operations;
       Provided information on various HUD reviews of Flagstar;
       Researched and provided guidance regarding underwriter qualification requirements and
       responsibilities and the allowable use of assistant underwriters;


                                       Office of Audit – Civil Fraud Division
                               451 7th Street S.W., Room 8286, Washington, DC 20410
                                     Phone (202) 708-0430, Fax (202) 401-2505
                          Visit the Office of Inspector General Website at www.hudoig.gov
       Provided various HUD handbooks, mortgagee letters, and other guidance;
       Interviewed HUD staff; and
       Provided copies of Flagstar’s annual lender certifications required for participation in the
       FHA program.

                                        BACKGROUND

Flagstar Bank, FSB, is a supervised direct endorsement lender headquartered in Troy, MI. Since
1988, Flagstar has been a participant in the direct endorsement lender program, a Federal
program administered by FHA. The direct endorsement lender program authorizes private-sector
mortgage lenders to approve mortgage loans for FHA insurance. Lenders approved for the
program must follow various HUD-FHA requirements and provide annual and per loan
certifications that the lender complies with these requirements when underwriting and approving
loans for FHA insurance.

                                            RESULTS

Flagstar did not conduct its operations in the underwriting of FHA loans in accordance with
HUD-FHA regulations. On February 24, 2012, Flagstar admitted, acknowledged, and accepted
responsibility for submitting false certifications to HUD about the eligibility of its loans for FHA
insurance. In a settlement reached with the U.S Attorney’s Office, the lender agreed to pay
$132.8 million to the United States in damages and penalties under the False Claims Act and to
reform its business practices.

Flagstar admitted that during the period January 1, 2002, to February 24, 2012, it delegated
underwriting decisions to unauthorized staff. The lender also admitted that it underwrote and
approved for FHA insurance loans that did not comply with certain HUD-FHA underwriting
requirements, and HUD paid insurance claims on these ineligible loans. Further, the U.S.
Attorney’s Office announced that Flagstar set daily quotas for its HUD-approved underwriters
and underwriting assistants and paid these employees substantial incentive awards for exceeding
daily quotas.

Flagstar agreed to pay $132.8 million and to other concessions to resolve the U.S. Government’s
claims. The lender agreed to pay $15 million within 30 days after approval of the settlement by
the court and make additional payments totaling $117.8 million as soon as it met certain financial
benchmarks. Additionally, Flagstar agreed to (1) comply with all relevant HUD-FHA rules
applicable to direct endorsement lenders, (2) the completion of a 1-year period in which
Flagstar’s compliance with HUD-FHA rules would be monitored by a third party at Flagstar’s
expense, and (3) implementation of a training program for all employees involved in the
origination and underwriting of FHA loans. Flagstar also agreed to certify to HUD that the
individuals in senior leadership positions who previously had primary responsibility for initiating
and overseeing Flagstar’s manual underwriting process were no longer employed by the lender.




                                                 2
                                RECOMMENDATION

We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.   Agree to allow HUD OIG to post the $14,550,000 (the amount received by HUD as of
      April 2012) recovery to HUD’s Audit Resolution and Corrective Actions Tracking
      System.




                                           3
